           Office of Inspector General




September 24, 2004

THOMAS A. GUTTADAURO
MANAGER, NEW YORK INTERNATIONAL SERVICE CENTER

SUBJECT:         Audit Report - Efficiency of the Airmail Records Unit at the New York
                 International Service Center (Report Number NO-AR-04-011)

This report presents the results of our audit of the Airmail Records Unit (AMRU) at the
New York International Service Center (ISC) located in the New York Metro Area
(Project Number 04YG008NO001). Our objective was to determine the efficiency of
work performed at the New York ISC. The Managing Director, International Network
Operations, requested the audit of the ISC, which we conducted jointly with New York
Metro Area mail processing managers and in cooperation with the Manager, New York
ISC.

The New York ISC could improve the efficiency of the AMRU by reducing workhours by
30,000. Management should also consider outsourcing the AMRU, since this operation
is not core to New York ISC’s mission of processing international mail. A 30,000-hour
reduction in workhours could produce a cost avoidance of $9,248,967 based on labor
savings over a ten-year period. These funds represent funds put to better use for the
Postal Service and will be reported as such in the September 2004 Semiannual Report
to Congress.

We made two recommendations to Postal Service management addressing these
issues. Management agreed to our finding, recommendations, and monetary impact
and has initiatives in progress or planned addressing the issues in this report.
Management’s comments and our evaluation of these comments are included in the
report.

The OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Robert J.
Batta, Director, Network Operations - Processing, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Mary Anne Gibbons
    David L. Solomon
    Paul E. Vogel
    Michael J. Nappi
    Steven J. Forte
    Steven R. Phelps
Efficiency of the Airmail Records Unit at the                         NO-AR-04-011
 New York International Service Center



                                      TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                  1

     Background                                                                1
     Objective, Scope, and Methodology                                         1
     Prior Audit Coverage                                                      2

 Part II

 Audit Results                                                                 3

     Assessment of the Airmail Records Unit                                    3
     Recommendations                                                           4
     Management’s Comments                                                     4
     Evaluation of Management’s Comments                                       5

 Appendix A. Prior Audit Coverage                                              6

 Appendix B. Cost Avoidance at the Airmail Records Unit, New York              9
             International Service Center (Funds Put to Better Use)

 Appendix C. Management’s Comments                                            10
Efficiency of the Airmail Records Unit at the                                      NO-AR-04-011
 New York International Service Center


                                      EXECUTIVE SUMMARY
 Introduction                     The Office of Inspector General assessed the operations of
                                  the Airmail Records Unit (AMRU) at the New York
                                  International Service Center (ISC) located in the New York
                                  Metro Area. Our objective was to determine the efficiency
                                  of work performed at the New York ISC. The Managing
                                  Director, International Network Operations, requested the
                                  audit of the ISC, which we conducted jointly with New York
                                  Metro Area mail processing managers and in cooperation
                                  with the Manager, New York ISC.

 Results in Brief                 The New York ISC could improve efficiency by reducing
                                  workhours in the AMRU by 30,000. Management should also
                                  consider outsourcing the AMRU, since this operation is not
                                  core to the New York ISC’s mission of processing international
                                  mail. A 30,000 workhour reduction could produce a cost
                                  avoidance of $9,248,967 based on labor savings over a
                                  ten-year period. These funds represent funds put to better
                                  use for the Postal Service and will be reported as such in the
                                  September 2004 Semiannual Report to Congress.

                                  Postal Service management had addressed operational
                                  efficiency by adjusting their actual workhours to match the
                                  number of workhours planned for in the budget process. As
                                  a result, they reduced fiscal year (FY) 2003 workhours by
                                  8 percent from FY 2002 levels. However, Postal Service
                                  management had not evaluated operational efficiency by
                                  examining productivity per employee or using available
                                  automation.

                                  Postal Service management agreed to reduce AMRU
                                  workhours by 30,000 at the New York ISC by the end of
                                  FY 2009. They also agreed to consider outsourcing the
                                  AMRU.

 Summary of                       We recommended the Manager, New York ISC, reduce
 Recommendations                  workhours at the AMRU by 30,000, or outsource this
                                  operation. Workhour reductions are based on FY 2003
                                  workhour usage, with reductions to begin in FY 2004 and be
                                  completed by the end of FY 2009.




                                                  i
Efficiency of the Airmail Records Unit at the                                         NO-AR-04-011
 New York International Service Center




 Summary of                       Management agreed with our finding, recommendations, and
 Management’s                     associated monetary impact. Postal Service agreed to
 Comments                         request additional resources to remove excess equipment and
                                  improve controls and provide instructions on MERLIN
                                  overwrites. Management’s comments, in their entirety, are
                                  included in Appendix C of this report.

 Overall Evaluation of            Management’s comments reflect that the Manager, New York
 Management’s                     ISC, has been very proactive and aggressive with
 Comments                         implementing the recommendations. They are also committed
                                  to continually improving their operations as made evident by
                                  their participation and cooperation with the joint effort process.
                                  Management’s actions, taken or planned, should correct the
                                  issues identified in this report.




                                                   ii
Efficiency of the Airmail Records Unit at the                                                             NO-AR-04-011
 New York International Service Center


                                               INTRODUCTION
    Background                         When the Postal Service established the International
                                       Service Centers (ISC) Network in 1996, it absorbed the
                                       operations of the Airmail Records Units (AMRU), which
                                       existed as part of the International Exchange Offices
                                       before the creation of the Network.1 The AMRUs were
                                       established to provide a communications link between
                                       foreign postal administrations and the Postal Service
                                       wherever there is an exchange of international mail.
                                       AMRUs are the first point of contact for questions about
                                       the transport and delivery of international mail.

                                       AMRUs handle all matters involving international mail for
                                       their International Exchange Offices.2 One of their main
                                       functions is to communicate with foreign postal
                                       administrations and reconcile incoming international
                                       documents. These units are repositories for all inbound mail
                                       records and are responsible for any research and
                                       adjustments made to inbound or outbound mail records.
                                       The information maintained by the AMRUs is transmitted to
                                       the International Accounting Branch in St. Louis, Missouri,
                                       for processing and payment to transportation carriers and
                                       foreign postal administrations.

                                       AMRUs are located in Los Angeles, California; Chicago,
                                       Illinois; San Francisco, California; Fort Worth, Texas;
                                       Honolulu, Hawaii; Jamaica, New York; Jersey City,
                                       New Jersey; Miami, Florida; Oakland, California; San Juan,
                                       Puerto Rico; and Seattle, Washington. About 100 people
                                       are employed in these AMRUs. Although these units
                                       previously reported to finance offices, as of October 2003,
                                       they report to International Network Operations.

    Objective, Scope,                  The audit assessed the efficiency of the AMRU at the
    and Methodology                    New York ISC. The Managing Director, International
                                       Network Operations, requested the audit of the ISC, which
                                       we conducted jointly with New York Metro Area mail
                                       processing managers and in cooperation with the Manager,
                                       New York ISC.



1
 AMRUs are also referred to as International Records Units.
2
 An International Exchange Office is a post office, airport mail center, or facility authorized to exchange international
mail and military mail, both air and surface, with another country.




                                                            1
Efficiency of the Airmail Records Unit at the                                      NO-AR-04-011
 New York International Service Center



                                   To assess the efficiency of the New York ISC, we observed
                                   operations at the AMRU, analyzed mail volumes and
                                   workhours, interviewed Postal Service employees, and
                                   evaluated employee efficiency.

                                   We relied on Postal Service operational systems, including
                                   the National Workhour Reporting System, the Management
                                   Operating Data System, the Web Enterprise Information
                                   System, and the Web End-of-Run System to analyze
                                   mailings and workhours. We did not test the validity of
                                   controls over these systems. However, we checked the
                                   accuracy of data by confirming our analysis and results with
                                   Postal Service managers.

                                   This audit was conducted from April through
                                   September 2004 in accordance with generally accepted
                                   government auditing standards and included such tests
                                   of internal controls as were considered necessary under
                                   the circumstances. We discussed our observations and
                                   conclusions with appropriate management officials and
                                   included their comments, where appropriate.

   Prior Audit Coverage            We have issued two audit reports on workhour efficiency at
                                   ISCs and seven reports on efficiency at business mail entry
                                   units. (See Appendix A for details.)




                                                  2
Efficiency of the Airmail Records Unit at the                                        NO-AR-04-011
 New York International Service Center



                                           AUDIT RESULTS
 Assessment of the                 Although the Postal Service reduced workhours by 8 percent
 Airmail Records Unit              in 2003, international mail records processed and
                                   maintained at the AMRU could be processed more
                                   efficiently. Inefficiencies occurred because the unit did not
                                   meet productivity goals; need certain positions; or use
                                   automation equipment available to them. Management
                                   should also consider outsourcing the AMRU since this
                                   operation is not core to the New York ISC’s mission of
                                   processing international mail.

                                   Title 39, United States Code, Chapter 4, Section 403, states,
                                   “The Postal Service shall plan, develop, promote, and
                                   provide adequate and efficient postal services . . . to provide
                                   types of mail service to meet the needs of different
                                   categories of mail and mail users.”

 Airmail Records Unit Did          The AMRU was processing international mail records
 Not Meet Productivity             inefficiently. Production reports obtained during our review
 Goal                              showed that productivity in the unit was about 13 records
                                   per employee per day. This level of production is
                                   significantly below the goal of 50 records per employee per
                                   day set by ISC management. This level of production would
                                   reduce workhours by approximately 45,000. However, the
                                   goal of 50 records per day may not be immediately
                                   attainable. A goal of 25 records per day, and a
                                   corresponding workhour reduction of 25,000 hours, is more
                                   realistic.

 Unnecessary Positions             The two positions currently in place for the translators were
                                   obsolete because translation software was in use.
                                   Additionally, the position of receptionist was unnecessary.
                                   Observations showed that the receptionist was handling
                                   records nine times before forwarding them to a processing
                                   clerk for review. This amount of handling is unnecessary
                                   and may create backlogs. Eliminating these three positions
                                   could save approximately 5,000 workhours.

 Available Automation              An imaging system on-site, purchased in 1999 for
 Equipment Not Used                approximately $93,000, could be used to automate and
                                   store all records received and processed by the AMRU.
                                   This equipment was not used because training had not been
                                   provided.




                                                   3
Efficiency of the Airmail Records Unit at the                                          NO-AR-04-011
 New York International Service Center


                                   We estimated the AMRU could reduce workhours by
                                   30,000 by the end of FY 2009. This 30,000 workhour
                                   reduction could produce a cost avoidance of over $9 million
                                   based on labor savings over a ten-year period. (See
                                   Appendix B for details.)

                                   Illustration 1. Airmail Records Unit at the New York ISC.
                                   The work at this unit could be automated to reduce workhours.




 Recommendations                   To improve operating efficiency at the Airmail Records Unit,
                                   we recommend the Manager, New York International
                                   Service Center:

                                        1. Reduce workhours by 30,000; this will result in a cost
                                           savings of approximately $9 million over a ten-year
                                           period.

                                        2. Consider outsourcing the Airmail Records Unit
                                           operation.

 Management’s                      Management agreed with our finding, recommendations,
 Comments                          and associated monetary impact. The Manager, New York
                                   ISC, made a commitment to reduce workhours by 30,000 at
                                   the AMRU over the next several years. New York ISC
                                   management also committed to continue exploring the
                                   feasibility of outsourcing the AMRU operation.




                                                    4
Efficiency of the Airmail Records Unit at the                                     NO-AR-04-011
 New York International Service Center


 Evaluation of                     Management’s comments reflect that the Manager, New
 Management’s                      York ISC, has been very proactive and aggressive with
 Comments                          implementing the recommendations. The New York ISC
                                   management is also committed to continually improving their
                                   operations as made evident by their participation and
                                   cooperation with the joint effort process. Management’s
                                   actions, taken or planned, should correct the issues
                                   identified in the finding.




                                                  5
Efficiency of the Airmail Records Unit at the                               NO-AR-04-011
 New York International Service Center



                                                APPENDIX A

                                   PRIOR AUDIT COVERAGE

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, September 26, 2002), reported
that many of the business mail entry employees at the Denver Bulk Mail Center and
Denver General Mail Facility were not needed to accept business mailings.
Management could save an estimated $1 million annually if the number of employees
was reduced. We recommended management oversee the consolidation of business
mail entry operations and reduce staff as planned, and reevaluate staffing to determine
whether further staff reductions were necessary. Management agreed, and the actions
taken and planned were responsive to the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, March 28, 2003),
reported that these facilities should reduce the workhours necessary to accept business
mailings. Management could save an estimated $588,730 through the end of FY 2005
when its planned workhour reductions are fully implemented. We recommended Senior
Plant Managers at the Seattle, Minneapolis, and Des Moines Bulk Mail Centers reduce
hours, reevaluate staffing needs periodically, and ensure that appropriately trained
personnel perform acceptance functions. Management agreed, and the actions taken
and planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, July 31, 2003), reported the district should
reduce the workhours necessary to accept business mailings. During the audit, Postal
Service management agreed to aggressively reduce business mail entry workhours by
28,800 hours by the end of FY 2005. This reduction in workhours could produce an
estimated cost avoidance of approximately $9.26 million over ten years. We
recommended the Manager, Los Angeles District, reduce hours and reevaluate staffing
needs periodically. Management agreed with our recommendations and has initiatives
in progress addressing the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the San Francisco
District (Report Number AO-AR-03-002, September 25, 2003), reported the district
should reduce the workhours necessary to accept business mailings in the
San Francisco Business Mail Entry Unit. During the audit, Postal Service management
agreed to aggressively reduce business mail entry workhours by 18,000 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of approximately $6.9 million over ten years. We recommended the
Manager, San Francisco District, reduce hours as planned and reevaluate staffing




                                                    6
Efficiency of the Airmail Records Unit at the                                NO-AR-04-011
 New York International Service Center


needs periodically. Management agreed, and the actions taken and planned were
responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks at the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, December 24, 2003),
reported the district should reduce the workhours necessary to accept business
mailings in the Southern Maryland Business Mail Entry Unit. During the audit, Postal
Service management agreed to aggressively reduce business mail entry workhours by
20,240 hours by the end of FY 2006. This reduction in workhours could produce an
estimated cost avoidance of approximately $8.4 million over ten years. We
recommended the Manager, Capital District, reduce hours as planned and reevaluate
staffing needs periodically. Management agreed, and the actions taken and planned
were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland,
Business Mail Entry Unit (Report Number NO-AR-04-002, December 26, 2003),
reported the district should reduce the workhours necessary to accept business
mailings in the Columbia, Maryland, Business Mail Entry Unit. During the audit, Postal
Service management agreed to reduce business mail entry workhours by 3,960 hours
by the end of FY 2005. This reduction in workhours could produce an estimated cost
avoidance of approximately $1.4 million over ten years. We recommended the
Manager, Baltimore District, reduce hours as planned and periodically reevaluate
staffing. Management agreed, and the actions taken and planned were responsive to
the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Springfield, Virginia,
Business Mail Entry Unit (Report Number NO-AR-04-004, February 9, 2004), reported
the district should reduce the workhours necessary to accept business mailings in the
Springfield, Virginia, Business Mail Entry Unit. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 2,775 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of $969,893 over ten years. We recommended the Manager, Northern
Virginia District, reduce hours as planned and periodically reevaluate staffing.
Management agreed, and the actions taken and planned were responsive to the issues
identified in the report.

Efficiency of the San Francisco International Service Center and the General Services
Administration Facility (Report Number NO-AR-04-006, March 31, 2004), reported the
district should reduce the workhours necessary to process mail at the San Francisco
ISC, transfer mail from the General Services Administration (GSA) Facility to the
San Francisco ISC, and close the GSA facility. During the audit, Postal Service
management agreed to reduce mail processing workhours at the San Francisco ISC by
120,000 hours by the end of FY 2007. This reduction in workhours could produce an
estimated cost avoidance of approximately $39 million over ten years. In addition,
management agreed to close the GSA facility, which could produce a cost avoidance of




                                                7
Efficiency of the Airmail Records Unit at the                                 NO-AR-04-011
 New York International Service Center


approximately $5.2 million over ten years. We recommended the Manager,
San Francisco District, reduce hours as planned, close the GSA facility, and periodically
reevaluate staffing. Management agreed, and the actions taken and planned were
responsive to the issues identified in the report.

Efficiency of the Oakland International Service Facility and the Regatta Facility (Report
Number NO-AR-04-007, March 31, 2004), reported the district should reduce the
workhours necessary to process mail at the Oakland International Service Facility,
transfer mail from the Regatta Facility, and close the Regatta Facility. During the audit,
Postal Service management agreed to reduce mail processing workhours at the
Oakland ISC by 25,000 hours by the end of FY 2006. This reduction in workhours could
produce an estimated cost avoidance of approximately $5.4 million over ten years. In
addition, management agreed to close Building 512 rather than the Regatta Facility due
to an early termination of the Building 512 lease. The closure of Building 512 could
produce a cost avoidance of approximately $3.4 million. We recommended the
Manager, Oakland District, reduce hours as planned, close Building 512, and
periodically reevaluate staffing. Management agreed, and the actions taken and
planned were responsive to the issues identified in the report.




                                                8
Efficiency of the Airmail Records Unit at the                                            NO-AR-04-011
 New York International Service Center



                                                APPENDIX B

             COST AVOIDANCE AT THE AIRMAIL RECORDS UNIT,
               NEW YORK INTERNATIONAL SERVICE CENTER
                      (FUNDS PUT TO BETTER USE)


                                           Total           Undiscounted Total          Discounted Total
                                        Workhour            Savings or (Costs)        Savings or (Costs)
        Employee Category               Reduction        (Ten Years – 2.7 Percent   (Ten Year – 5 Percent
                                        (Increase)           Escalation Rate)           Discount Rate)

   Airmail Records Unit Clerks
   (PS-5). Yearly reduction of            30,000               $13,350,593               $9,248,967
   6,000 hours over five years

Notes

    •   The total workhour reduction is based on decreasing AMRU hours by 30,000.

    •   Workhour reductions are based on Postal Service management’s plan to reduce
        30,000 workhours over a five-year period from FYs 2005 to 2009, based on
        FY 2003 workhour usage of 60,871.

    •   We calculated cost avoidance using the hour savings multiplied by the escalated
        labor rate over a ten-year period.

    •   We calculated the net present value using the discount rate of 5 percent over a
        ten-year period. The yearly escalation factor is 2.7 percent.

    •   Labor rates were based on the Postal Service’s 2003 published rates for a PS-05
        Mail Processing Clerk.

Funds Put to Better Use -- Funds that can be used more efficiently by implementing
recommended actions.




                                                     9
Efficiency of the Airmail Records Unit at the           NO-AR-04-011
 New York International Service Center


                    APPENDIX C. MANAGEMENT’S COMMENTS




                                                10
Efficiency of the Airmail Records Unit at the        NO-AR-04-011
 New York International Service Center




                                                11
